No. 19-641

3fn ~be

~upreme <!Court of tbe Wniteb ~tates
COLORADO DEPARTMENT OF LABOR AND EMPLOYMENT,
DMSION OF WORKERS' COMPENSATION,

Petitioner,

V.

DAMI HOSPITALITY, LLC,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COLORADO SUPREME COURT

BRIEF FOR RESPONDENT
CERTIFICATE OF SERVICE

I, Gregory G. Garre, counsel of record for Respondent Dami Hospitality, LLC,
and a member of the Bar of this Court, hereby certify that on the 6th day of December,
2019, I caused to be served three (3) copies of the Brief for Respondent in the abovereferenced case by U.S. first-class mail, postage prepaid, upon the counsel for
Petitioner as listed below:
Eric R. Olson
Solicitor General
Office of the Colorado Attorney General
1300 Broadway, 10th Floor
Denver, CO 80203
(720) 508-6000
eric.olson@coag.gov

Counsel for Petitioner

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for Respondent was transmitted to counsel for Petitioner at the
email address indicated above.
I further certify that all parties required to be served have been served.

555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory .garre@lw.com

Counsel for Respondent

2

